No. 20-7295

IN THE
SUPREME COURT OF UNITED STATES

Isidro Sauceda, Petitioner,
v.
David Shinn, Director of Arizona Department of Corrections, and the
Attorney General of the State of Arizona, Respondents
On Petition For Writ Of Certiorari
To The Ninth Circuit Court of Appeals

PETITION FOR REHEARING

Sandra Slaton, Counsel of Record
HORNE SLATON PLLC
6720 N. Scottsdale Road, Suite 285
Scottsdale, Arizona 85253
Telephone: (480 518-2154
slaton@horneslaton.com

RECEIVED
MAY 1 8 2021
OFFICE OF THE CLERK
SUPREME CORT, U.S.

May 14, 2021

TABLE OF CONTENTS
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

PETITION FOR REHEARING

1

CONCLUSION

14

CERTIFICATE OF COUNSEL

16

CERTIFICATE OF COMPLIANCE

17

TABLE OF AUTHORITIES
Page(s)
Cases
Beck v. Alabama,
8, 9

447 U.S. 625 (1980)
Buck v. Davis,
137 S. Ct. 759 (2017)

3

Carter v. Duncan,
13

819 F.3d 931 (7th Cir. 2016)
Cobble v. Smith,
154 Fed. Appx. 447 (6th Cir. 2005)

13

Detrich v. Ryan,
12

740 F.3d 1237 (9th Cir. 2013)
Gonzalez v. Thaler,

4

565 U.S. 134 (2012)
Gregg v. Rockview,

13

596 Fed. Appx. 72 (3d Cir. 2015)
Harris v. Bowersox,

13

184 F.3d 744 (8th Cir. 1999)
Haynes v. Quarterman,

7

526 F.3d 189 (5th Cir. 2008)
Herrera v. Payne,

4, 7

673 F.2d 307 (10th Cir. 1982)
Lambright v. Stewart,

9

220 F.3d 1022 (9th Cir. 2000)
ii

Miller-El v. Cockrell,
537 U.S. 322 (2003)

3, 5

Murphy v. Ohio,
263 F.3d 466 (6th Cir. 2001)

4, 5, 6, 7

Ojeda v. Sec'y for Dept. of Corr.,
279 Fed. Appx. 953 (11th Cir. 2008)

13

Porterfield v. Bell,
258 F.3d 484 (6th Cir. 2001)

5

Rivera Alicea v. United States,
404 F.3d 1 (1st Cir. 2005)

13

Roberts v. Champion,
18 Fed. Appx. 674 (10th Cir. 2001)

13

Rose v. Guyer,
961 F.3d 1238 (9th Cir. 2020)

4

Ryan v. Rivera,
21 Fed. Appx. 33 (2d Cir. 2001)

13

Slack v. McDaniel,
529 U.S. 473 (2000)

3, 7

Smith v. Dretke,
422 F.3d 269 (5th Cir. 2005)

13

Strickland v. Washington,
10

466 U.S. 668 (1984)
United States v. Crutchfield,
547 F.2d 496 (9th Cir. 1977)

9

111

United States v. Runyon,
983 F.3d 716 (4th Cir. 2020)

13

United States v. Vargas-Lopez,
243 F.3d 552 (9th Cir. 2000)

11

Statutes
28 U.S.C. ยง 2253(c)(2)

5

Rules
Sup. Ct. R. 44.2

1

iv

PETITION FOR REHEARING
Pursuant to Sup. Ct. R. 44.2, Petitioner Isidro Sauceda
("Petitioner") respectfully requests this Court for an order (1) granting
rehearing, (2) vacating the Court's April 19, 2021, order denying
certiorari, and (3) accepting certiorari in order to resolve the split
between the Fifth Circuit versus the Sixth and Tenth Circuits in
determining whether a court should be able to issue a blanket denial of
certificate of appealability without violating the Petitioner's due process
rights.
This case involves Petitioner, an innocent man, who was convicted
of first-degree murder' and sentenced to prison for the rest of his life on
nothing more than circumstantial evidence. At all times, he proclaimed
his innocence to the charges. The State's theory of the circumstantial
case against Petitioner was that he was in a gang and, therefore,
implicitly should have been found guilty. The "gang" theory was in turn
based on the State's theory that Petitioner was wearing "red" including
a "red rag" on the night in question, a color associated with the criminal

1-

Two counts of attempted first-degree murder, one count of aggravated
assault, and one count of assisting a criminal street gang.
1

street gang. This "red" connection was stressed throughout the trial,
beginning with the opening statement, continuing with the questioning
of witnesses, and emphasized again in closing argument.
However, during the pendency of the appeals, counsel
undersigned found two witnesses who were never even called by his
defense counsel to testify before the jury. Both witnesses submitted
affidavits which reflected that Petitioner was not in a gang, was not
wearing red on the night in question, and did not have a weapon.
These key witnesses, if defense counsel would have called them to
testify, could have exonerated Petitioner at trial.
Without this Court's intervention, Petitioner will never receive the
chance to present his appellate claims on the merits. Unless this Court
of last resort steps in, Petitioner, an innocent man, will be forced to
languish in prison for the rest of his life. The district court's preemptive
sua sponte blanket denial together with Ninth Circuit's blanket denial
of a COA in this case constitutes a travesty of justice.
The Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA") brought forth a drastic change to the appealability
regarding the denial of habeas relief. Under the AEDPA, in order to

have an appeal heard on the merits, a petitioner is required to receive a
certificate of appealability ("COA") from either the trial court or the
appellate court. The appellate court can issue a COA when a petitioner
demonstrates "a substantial showing of the denial of a constitutional
right." Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). This standard is
satisfied by demonstrating that "jurists of reason could disagree with
the district court's resolution of his constitutional claims[.]" Id. at 327;
see also Slack v. McDaniel, 529 U.S. 473, 484 (2000). As this Court has
reasoned, "[A] claim can be debatable even though every jurist of reason
might agree, after the COA has been granted and the case has received
full consideration, that petitioner will not prevail." Miller-El, 537 U.S.
at 338; see also Buck v. Davis, 137 S. Ct. 759, 774 (2017).
As the Supreme Court stated in Miller-El, "This threshold inquiry
does not require full consideration of the factual or legal bases adduced
in support of each claim." Miller-El, 537 U.S. at 337. This function has
been described as "a `gatekeeping' function"' used to "screen out issues
unworthy of judicial time and attention and ensur[ing] that frivolous
claims are not assigned to merits panels." Rose v. Guyer, 961 F.3d 1238,

3

1243 (9th Cir. 2020) (quoting Gonzalez v. Thaler, 565 U.S. 134, 145
(2012)).
In Murphy v. Ohio, 263 F.3d 466, 467 (6th Cir. 2001) the Sixth
Circuit determined that the blanket and preemptive denial of a COA
was improper. In Herrera v. Payne, 673 F.2d 307, 307 (10th Cir. 1982),
the Tenth Circuit also vacated the blanket denial of a COA even though
the denial referred to the extensive analysis in the decision to deny
habeas relief.
_

In the present case, both the District Court and the Ninth Circuit

issued blanket denials of the Petitioner's request for a COA. In the
District Court, the Magistrate Judge's Report and Recommendation,
adopted by the district court judge, included the statement: "The
undersigned recommends that, should the Report and Recommendation
be adopted and, should Sauceda seek a certificate of appealability, a
certificate of appealability should be denied because he has not made a
substantial showing o the denial of a constitutional right." (Report and
Recommendation, p. 26). While Petitioner filed specific objections to the
Report and Recommendation, he never had the chance to request a
COA from the District Court. On April 29, 2020, just two days after

4

Petitioner's objection to the Report and Recommendation was filed, the
District Court issued an order which reads in pertinent part: "A request
for certificate of appealability will be denied because Petitioner has not
made a substantial showing of the denial of a constitutional right about
which reasonable jurists would disagree." (Order and Denial of
Certificate of Appealability, 4/29/2020, p. 2). Similarly, the Ninth
Circuit, upon Petitioner's request for a COA issued a one sentence
denial of the COA reading: "The request for a certificate of appealability
(Docket Entry No. 2 is denied because appellant has not made a
`substantial showing of the denial of a constitutional right.' 28 U.S.C. ยง
2253(c)(2); see also Miller-El v. Cockrell, 537 U.S. 322, 327 (2003)." The
refusal to grant certificates of appealability by both the district court
and the Ninth Circuit were blanket denials where none of the claims
presented by Petitioner were analyzed on the merits.
In the Sixth Circuit decision of Murphy, the inmate challenged the
denial of his request for COA before he even applied for such. Murphy,
263 F.3d at 467. The Murphy court, quoting Porterfield v. Bell, 258
F.3d 484, 486 (6th Cir. 2001), explained the reasoning why blanket
grants or denials of a COA should not issue:

5

Both of these approaches undermine the gate keeping
function of certificates of appealability, which ideally
should separate the constitutional claims that merit the close
attention of counsel and this court from those claims that
have little or no viability. Moreover, because the district court
is already deeply familiar with the claims raised by petitioner,
it is in a far better position from an institutional perspective
than this court to determine which claims should be certified.
(Emphasis added). The Murphy court vacated the denial of a COA by
the district court which was issued even before such was requested, as
in Petitioner's case. In so doing, that court reasoned the denial was
error because it "failed to provide any analysis whatsoever as to
whether Murphy had made a 'substantial showing of the denial of a
constitutional right."' Id. at 467.
The facts in Murphy are virtually identical to the facts in the
present case regarding the COA in the district court. Indeed, in
Murphy, the Sixth Circuit discussed that a 92-page memorandum
opinion and order was filed regarding the denial of the inmate's petition
for habeas corpus. Similarly, in the present case, the Report and
Recommendation adopted by the district court (although not 92 pages)
was 26 pages long discussing all of Petitioner's claims. However, just as
in Murphy, the denial of a COA was blanket and provided no analysis

6

regarding the constitutional claims raised. This approach denies a
petitioner the right to have his habeas heard on the merits.
There exists a split in the authority between the Fifth Circuit
versus the Sixth and Tenth Circuits regarding the blanket grant or
denial of a COA. Cf. Murphy, 263 F.3d 466 and Herrera, 673 F.2d 307,
with Haynes v. Quarterman, 526 F.3d 189 (5th Cir. 2008). In Haynes,
the Fifth Circuit, regarding the issue of whether a COA should have
been issued, determined that the memorandum opinion denying the
petition for habeas corpus was specific enough to warrant the blanket
sua sponte denial of a COA. Haynes, 526 F.3d at 194. The Murphy
court, on the other hand, determined that even after setting forth the
reasons denying habeas relief, the district court must consider each
claim under Slack, 529 U.S. 473.
Petitioner submits that this Court should determine that the
requirement announced in Murphy, that the preemptive blanket grant
or denial of a COA, is improper. Rather, the appellate court should be
required to provide an individualized analysis regarding each claim.
In the present case, Petitioner presented four different claims
which established that it is debatable among jurists of reason that he

7

was denied a constitutional right. First, Petitioner claimed he was
denied his due process right to the reasonable doubt standard when a
lesser included offense instruction was not provided to the jury. Second,
Petitioner claimed he received ineffective counsel due to trial counsel's
failure to object to the lack of a lesser included offense instruction.
Third, Petitioner claimed he received ineffective assistance of counsel
when trial counsel failed to object to the lack of an instruction
permitting the jury to make a negative inference against the State for
lost, misplaced, or destroyed evidence. Finally, Petitioner claimed he
received ineffective assistance of counsel when trial counsel failed to
duly investigate exculpatory witnesses and evidence.
In Beck u. Alabama, 447 U.S. 625 (1980), this Court determined
that it was a denial of due process and the right to the reasonable doubt
standard to deny a charged person with lesser included offense
instructions. Id. at 634 ("For when the evidence unquestionably
establishes that the defendant is guilty of a serious, violent offense-but
leaves some doubt with respect to an element that would justify
conviction of a capital offense-the failure to give the jury the 'third

8

option' of convicting on a lesser included offense would seem inevitably
to enhance the risk of an unwarranted decision.").
In the present case, Petitioner was denied lesser included offense
instructions. While Petitioner maintained his innocence, the innocence
defense is not a bar to receiving a lesser included offense instruction.
United States v. Crutchfield, 547 F.2d 496, 501 (9th Cir. 1977); see also
Beck, 447 U.S. 625. Here, just as in Beck, Petitioner presented valid
claims of the denial of due process and the reasonable doubt standard,
both constitutional rights. A COA issued in Lambright v. Stewart, 220
F.3d 1022 (9th Cir. 2000) on the same issue regarding the lack of a
lesser included offense instruction. Clearly, reasonable jurists could
debate whether Petitioner was denied a constitutional right when he
failed to receive a lesser-included offense instruction.
Second, Petitioner submits that he presented valid claims for the
denial of his Sixth Amendment right to effective assistance of counsel.
Trial counsel failed to object, or even create a record, regarding the lack
of lesser-included offense instructions. Petitioner's trial counsel even
submitted an affidavit, which Petitioner attached to his first state postconviction relief petition:

9

The most likely explanation or this is that there was an offthe record discussion about these particular instructions and
the court denied them. It was my responsibility as trial
counsel to object and make the necessary record so that the
denial of these lesser-included instructions would be
preserved for appeal. Assuming this is what happened, I
failed to object and make the necessary record.
(Appendix, p. 214-15). As discussed above, the lack of a lesser-included
offense instruction resulted in the denial of due process and the
reasonable doubt standard. Additionally, by defense counsel's own
admission, he was ineffective in his representation of Petitioner during
trial.
This Court's landmark decision of Strickland v. Washington, 466
U.S. 668, 668 (1984) established that ineffective assistance of counsel
required a two-part test: (1) defendant must show that counsel's
performance was deficient; and (2) there is a reasonable probability that
but for the errors the result of the proceeding could have been different.
Id. at 687. Here, Petitioner's trial counsel admitted his performance
was deficient. Moreover, that deficient performance resulted in
requiring Petitioner to establish fundamental error (a drastically
heightened appellate standard) in the denial of lesser-included offense
instructions.

10

Clearly, jurists of reason could debate the denial of Petitioner's
petition for habeas relief based upon this denial of a constitutional
right. Indeed, in the Ninth Circuit decision of United States v. VargasLopez, 243 F.3d 552 (9th Cir. 2000), trial counsel's admitted error of not
executing a plea agreement was deemed to constitute ineffective
assistance of counsel. While Vargas-Lopez involved a plea agreement,
the same reasoning should apply here. In Vargas-Lopez, the defendant
faced an increase in the counts to which he pled guilty, which in turn
had the effect of increasing the offense level and sentencing guidelines,
due to a lack of a stipulation to the low end of the guidelines. Here,
with the lack of lesser-included offense instructions, not only did
Petitioner face increased sentencing, but also faced the heightened
standard of review of fundamental error, rather than harmless error
which created a reasonable probability that, but for trial counsel's error,
the outcome could have been different. Petitioner has presented a
constitutional claim on which reasoned jurists could debate.
Third, Petitioner also submits that he received ineffective
assistance of counsel regarding the denial of a jury instruction allowing
the jury to make a negative inference against the State because it did

11

not preserve bullet/fragments for the Petitioner to test. In this case,
Petitioner presented unchallenged evidence that the bullet/fragments
were sent to the authorities. The testimony of Dr. Zacher, the surgeon
who removed the bullet/fragments, reads in pertinent part: "We handed
those directly off to the police officers usually waiting right outside of
the operating room." (Appendix, p. 21). Moreover, Dr. Zacher's written
medical report reads in pertinent part: "These bullets were sent to the
authorities via the standard protocol." (Appendix, p. 215).
Petitioner has presented a claim that he was denied his
constitutional right regarding the lack of a jury instruction about which
reasonable jurists could debate. Detrich v. Ryan, 740 F.3d 1237, 1245
(9th Cir. 2013) (an "insubstantial claim" is one that "does not have any
merit or ... is wholly without factual support."). In the present case, not
only does the testimony at trial establish that the State was in
possession of the evidence, but also the surgical report of Dr. Zacher
confirms such. However, despite all indications that the evidence was
turned over to the authorities, Detective Lowe testified that the
Glendale Police Department was not in possession of the bullets
removed from a victim's head. Failure to object and receive the jury

12

instruction allowing the jury to make a negative inference against the
state on this basis was not only deficient performance by counsel, but
there is a reasonable probability that, but for the deficiency, the
outcome could have been different.
Finally, Petitioner also presented a substantial claim regarding
the denial of the constitutional right to effective assistance of counsel
where trial counsel failed to investigate exculpatory witnesses. Indeed,
failure to investigate is a denial of the constitutional right of effective
assistance of counsel. Rivera Alicea v. United States, 404 F.3d 1, 3 (1st
Cir. 2005); Ryan v. Rivera, 21 Fed. Appx. 33, 34 (2d Cir. 2001); Gregg v.
Rockview, 596 Fed. Appx. 72, 76 (3d Cir. 2015); United States v.
Runyon, 983 F.3d 716, 721 (4th Cir. 2020); Smith v. Dretke, 422 F.3d
269, 276 (5th Cir. 2005); Cobble v. Smith, 154 Fed. Appx. 447, 450 (6th
Cir. 2005); Carter v. Duncan, 819 F.3d 931, 939 (7th Cir. 2016); Harris
v. Bowersox, 184 F.3d 744, 756 (8th Cir. 1999); Roberts v. Champion, 18
Fed. Appx. 674, 677 (10th Cir. 2001); Ojeda v. Sec'y for Dept. of Corr.,
279 Fed. Appx. 953, 954 (11th Cir. 2008).
In the present case, while Petitioner's state post-conviction relief
petition was pending, counsel undersigned was able to obtain two

13

affidavits, one from Sherise Ulibarri and the other from Steven DeLeon,
which established that Petitioner could not have been the shooter. Both
affidavits confirmed that Petitioner was not in a gang, was not wearing
red clothing, and did not have any weapons or guns at any time.
Neither of these witnesses testified during the guilt phase of trial.
Clearly, jurists of reason could debate whether Petitioner was denied
the Sixth right to effective assistance of counsel for failing to investigate
exculpatory witnesses and testimony.
This .Court of last resort is Petitioner's last chance to ever have his
claims heard on the merits by an appellate court. Indeed, without
waiting for any request from Petitioner, the district court adopted the
Magistrate's Report and Recommendation and issued a blanket denial
of a COA to Petitioner. The Ninth Circuit also issued a blanket denial
of a COA to Petitioner in a one sentence order.
CONCLUSION
Petitioner requests this Court to adopt the position of the Sixth
and Tenth Circuits, that no court should issue a blanket denial of a
habeas petitioner's request for a COA. Rather, in accordance with the
Fifth Amendment, as stated by the Sixth and Tenth circuits, courts

14

should be required to provide an individualized analysis regarding each
claim presented by a habeas petitioner. Therefore, based upon the
foregoing, Petitioner respectfully requests that this Court grant his
Petition For Rehearing and accept certiorari in order to resolve the split
in authority between the Fifth Circuit versus the Sixth and Tenth
Circuits.
Dated: May 14, 2021.
Respectfully submitted,

By:
Sandra Slaton, Counsel of Record
HORNE SLATON, PLLC
6720 N. Scottsdale Road, Suite 285
Scottsdale, Arizona 85253
Tel: (480) 518-2154
Fax: (480) 367-0691
slaton@horne slaton. corn
On behalf of Petitioner, Isidro Sauceda

15

